      National Association of Counties

    Audits of Financial Status Report for
    July 1, 1997, through April 30, 1998

                    and

Indirect Cost Proposal for Calendar Year 1998




     FINAL REPORT




                                U.S. Department of Labor
                                Office of Inspector General
                                Final Report No. 03-01-003-07-735
                                Date Issued: September 21, 2001
                                            TABLE OF CONTENTS




EXECUTIVE SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                 i


ACRONYMS AND GLOSSARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . iv


INTRODUCTION AND BACKGROUND . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1


OBJECTIVES AND SCOPE . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2


ASSISTANT INSPECTOR GENERAL’S REPORT ON ETA
FINANCIAL STATUS REPORT AND INDIRECT COST RATES . . . . . . . . . . . . . . . . . 3


ASSISTANT INSPECTOR GENERAL’S REPORT
ON COMPLIANCE AND ON INTERNAL CONTROL . . . . . . . . . . . . . . . . . . . . . . . . . . . 5


FINDINGS AND RECOMMENDATIONS

1.   Unallowable Indirect Costs Totaling $1,243,392 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7

     a.    Rent Expense . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .   7
     b.    Management Fees . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .      8
     c.    Bad Debt Expense . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .     8
     d.    Unallowable Nonpersonnel Expenses . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                  9
                               TABLE OF CONTENTS (Continued)




EXHIBITS

Exhibit A.        Financial Status Report . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13

Exhibit A-1.      Comparison of Reported Costs versus Actual Costs . . . . . . . . . . . . . . . . . . . . 14

Exhibit B.        Computation of Indirect Cost Rate for Calendar Year 1995 . . . . . . . . . . . . . . 15

Exhibit C.        Computation of Indirect Cost Rate for Calendar Year 1996 . . . . . . . . . . . . . . 16

Exhibit D.        Computation of Indirect Cost Rate for Calendar Year 1997 . . . . . . . . . . . . . . 17

Exhibit E.        Computation of Indirect Cost Rate for Calendar Year 1998 . . . . . . . . . . . . . . 18

Exhibit F.        Computation of Indirect Cost Rate for Calendar Year 1999 . . . . . . . . . . . . . . 19

Exhibit G.        Summary of Questioned Costs for Nonpersonnel Testing
                  Calendar Year 1998 – Statistical Sample . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 20

Exhibit H.        Summary of Questioned Costs for Nonpersonnel Testing
                  Calendar Year 1998 – Judgmental Sample . . . . . . . . . . . . . . . . . . . . . . . . . . . 22

Exhibit I.        Statistical Sample Projection of Questioned Costs
                  for Nonpersonnel Testing – Calendar Year 1998 . . . . . . . . . . . . . . . . . . . . . . . 23

Exhibit J.        Indirect Cost Rates and Reductions
                  for Calendar Years 1995 through 1999 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 24


AUDITEE’S RESPONSE . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 25
                                EXECUTIVE SUMMARY


The U.S. Department of Labor (DOL), Office of Inspector General (OIG), conducted an audit of
the Financial Status Report (FSR) prepared by the National Association of Counties (NACo) for
the costs claimed under the DOL Grant Agreement F-6254-7-00-80-60 for the period July 1,
1997, through April 30, 1998, totaling $202,145. We also audited NACo’s Indirect Cost Rates
for Calendar Year (CY) 1998 and total indirect costs of $7,041,452. As a result of the
accounting adjustments made to the charges within the indirect cost pool for CY 1998, we
examined CYs 1995, 1996, 1997, and 1999 to determine if unallowable costs were charged to the
indirect cost pool.

AUDIT RESULTS

Our audit of direct costs disclosed no reportable findings. However, the audit of indirect costs
resulted in unallowable rent, management fees, and bad debts of $266,585, and unallowable
nonpersonnel costs of $12,443, or total questioned costs of $279,028 for CY 1998. Because of
our findings in CY 1998, we performed more testing and we found additional unallowable costs
of $964,364 for CYs 1995, 1996, 1997, and 1999. In total, we questioned unallowable indirect
costs in the indirect cost pool for CYs 1995 through 1999 in the amount of $1,243,392. These
questioned costs resulted in a reduction to the proposed indirect cost rates which resulted in cost
reductions of $10,098 for DOL programs and $50,669 for all Federal programs for CYs 1995
through 1999. A summary of our findings follows.


   Expense          1995         1996          1997          1998           1999            Total
 a. Rent         $168,476      $177,284      $221,000      $192,924      $199,569         $959,253
 b. Mgt Fee         47,259       48,812         49,938       50,951        52,026          248,986

 c. Bad Debt               0            0             0      22,710                0        22,710

 d. Non-
    personnel              0            0             0      12,443                0        12,443

     Total       $215,735      $226,096      $270,938      $279,028      $251,595       $1,243,392




                                                  i
1. Unallowable Indirect Costs Totaling $1,243,392

   a. Rent Expense

Our audit of building expenses in the indirect cost pool for CY 1998 disclosed that NACo was
claiming both depreciation and Consumer Price Index (CPI) increases for building rent.
According to OMB Circular A-122, compensation for use of buildings may be made through
depreciation. NACo properly backed out the basic building rent at the end of CY 1998, but not
the CPI increase to building rent. Thus, we questioned $192,924 charged to the indirect cost pool
for the CPI adjustment to rent expense. Because of our finding in CY 1998, additional
unallowable CPI costs to building rent in the indirect cost pool for CYs 1995, 1996, 1997, and
1999 resulted in additional questioned costs of $766,329. Therefore, the total questioned costs
were $959,253 for CYs 1995 through 1999.

   b. Management Fees

Our audit of management fees for CY 1998 disclosed that NACo charged the indirect cost pool
$50,951 to manage its building operations. According to OMB Circular A-122, unallowable
costs include management fees. Thus, we questioned $50,951 charged to the indirect cost pool
for management fees. Because of our finding in CY 1998, additional management fees charged in
CYs 1995, 1996, 1997, and 1999 resulted in additional questioned costs of $198,035. Therefore,
the total questioned costs for managements fees were $248,986 for CYs 1995 through 1999.

   c. Bad Debt Expense

Our audit of bad debts for CY 1998 disclosed that NACo charged the indirect cost pool $22,710
for bad debts. According to OMB Circular A-122, Attachment B, para. 3, bad debt expenses are
unallowable. NACo did not claim bad debt expenses for CYs 1995, 1996, 1997, and 1999.

   d. Unallowable Nonpersonnel Expenses

Our audit of nonpersonnel expenses for CY 1998 disclosed unallowable costs charged to the
indirect cost pool totaling $32,443. Statistical sampling was used to test large-dollar expense
categories which resulted in a projected questioned cost of $26,357. Judgmental sampling was
used to test small-dollar expense categories which resulted in an additional $6,086 of unallowable
costs. Because NACo established a contingency for questioned costs in its indirect cost pool by
reducing the pool by $20,000, the net questioned cost impacting the 1998 indirect cost rate is
$12,443.

                                          *****




                                                ii
We recommend that the Director, Office of Cost Determination, disallow $1,243,392 of indirect
costs claimed by NACo for CYs 1995 through 1999 and adjust the indirect cost rates as
appropriate. These questioned costs resulted in a reduction to the proposed indirect cost rates
which resulted in cost reductions of $10,098 for DOL programs.

Auditee’s Response:

In a letter dated April 17, 2001, NACo disagreed with our questioned costs in the areas of rent
expense, management fees, and nonpersonnel expenses (specifically contingency credits), but
agreed the bad debts should not have been claimed in the indirect cost pool.

NACo’s written comments are discussed in more detail in each of our findings. The full text of
NACo’s response has been included at the end of this report.

Auditor’s Conclusion:

We do not agree with the explanations provided by NACo for allowing claimed rent expenses,
management fees, and nonpersonnel expenses (specifically contingency credits). These
recommendations are unresolved and will be addressed in ETA’s formal resolution process.

NACo agrees that the bad debt expense should not have been claimed in the indirect costs pool.
This recommendation is resolved but will remain open pending receipt of documentation that the
bad debt expense has been removed from the indirect cost pool.




                                                iii
                                       ˜ ACRONYMS ˜

           CD               Cost Determination
           CFR              Code of Federal Regulations
           CPI              Consumer Price Index
           CY               Calendar Year
           DOL              U.S. Department of Labor
           ETA              Employment and Training Administration
           FSR              Financial Status Report
           OCD              Office of Cost Determination
           OIG              Office of Inspector General
           OMB              Office of Management and Budget
           NACo             National Association of Counties


                                        ˜ GLOSSARY ˜

Questioned Cost –     A cost that is questioned because

                      • of an alleged violation of a provision of a law, regulation, contract,
                        grant, cooperative agreement, or other agreement or document
                        governing the expenditure of funds; or

                      • at the time of the audit, such cost is not supported by adequate
                        documentation; or

                      • a finding that the expenditure of funds for the intended purpose is
                        unnecessary or unreasonable.

Base              –   A group of direct costs used to distribute the indirect cost pool.

Direct Cost       –   A cost that can be readily identified specifically with a particular final cost
                      objective.

Indirect Cost     –   A cost which cannot be readily identified with a particular final cost
                      objective, but has been incurred for common or joint objectives.

Pool              –   All costs which are allocated to benefitting activities by means of a base
                      which measures the relative degree of benefit.




                                                 iv
                       INTRODUCTION AND BACKGROUND



A. Introduction

The U.S. Department of Labor (DOL), Office of Inspector General (OIG), conducted an audit of
the Financial Status Report (FSR) prepared by the National Association of Counties (NACo) for
the costs claimed under the DOL Grant Agreement F-6254-7-00-80-60 for the period July 1,
1997, through April 30, 1998, totaling $202,145. We also audited NACo’s Indirect Cost Rates
for Calendar Year (CY) 1998 and total indirect costs of $7,041,452. As a result of the
accounting adjustments made to the charges within the indirect cost pool for CY 1998, we
examined CYs 1995, 1996, 1997, and 1999 to determine if these unallowable costs were charged
to the indirect cost pool.

B. Background

NACo was created in 1935 and is the only national organization that represents county
governments in the United States. With its headquarters on Capitol Hill, NACo is a full-service
organization that represents over 1,800 counties and provides an extensive line of legislative,
research, and technical services as well as public affairs’ assistance to its members. The
association acts as a liaison with other levels of government, works to improve public
understanding of counties, serves as a national advocate for counties, and provides counties with
resources to help them find innovative methods to meet the challenges they face. Under the
authority of the Job Training Partnership Act, NACo was awarded a grant from DOL to provide
technical assistance to county executives.

OMB Circular No. A-122, Cost Principles for Nonprofit Organizations, sets out a uniform basis
for establishing allowable and allocable costs for Federal contracts with nonprofit organizations.
OMB Circular No. A-122 also contains principles for determining allowable costs for use in
preparation of indirect cost proposals. These principles can be further restricted by contract.

On April 28,1999, NACo and the Office of Cost Determination (OCD) negotiated an Indirect
Cost Agreement (Agreement). The Agreement established final rates through December 30,
1994, and provisional rates for January 1, 1995, through June 30, 1999.




                                                 1
                               OBJECTIVES AND SCOPE



The objectives of this audit were to determine whether the:

   1. Direct and indirect costs claimed by NACo were reasonable, allocable, and otherwise
      allowable under the cost principles set forth in OMB Circular No. A-122, Cost Principles
      for Nonprofit Organizations, and the terms of the grant.

   2. Direct costs and indirect costs were supported by adequate records.

   3. Indirect cost rates were prepared in accordance with applicable Federal laws and
      regulations.

   4. Allocation of indirect costs was based upon methods reasonably indicative of the benefits
      received.

Our scope was to audit NACo’s (1) direct costs claimed for FYs 1995 through 1999, and
(2) proposed and final indirect costs rates for calendar years 1995 through 1999. Because there
were no findings in the area of direct costs claimed on NACo’s FSRs for the period July 1, 1997,
through April 30, 1998, we did not audit the direct costs for the remaining periods. In addition,
we audited NACo’s indirect cost rates for CY 1998 and total indirect costs of $7,041,452.
Because there were no significant findings, we did not audit the proposed and final indirect cost
rates for CYs 1995, 1996, 1997, and 1999.

We conducted the audit in accordance with the generally accepted auditing standards and
Government Auditing Standards issued by the Comptroller General of the United States. Our
audit included such tests of accounting records and other auditing procedures as we considered
necessary.

Our audit was performed using criteria established by OMB Circular A-122 and the terms of the
Agreement. To meet our objectives, we reviewed selected transactions, records, and internal
controls to determine NACo’s compliance with applicable laws and regulations.

Our fieldwork was conducted at NACo’s office in Washington, D.C., during the period
October 5, 1999, through March 5, 2000. An entrance conference was held on October 5, 1999,
with the Finance Director and other officials from NACo. An exit conference was held with
NACo officials on August 2, 2000, at which time the results of our audit were discussed.
Additional information was received from NACo on August 29, 2000.




                                                2
The Honorable Emily S. DeRocco
Assistant Secretary for Employment
  and Training
U.S. Department of Labor
200 Constitution Avenue, NW
Washington, DC 20210


               ASSISTANT INSPECTOR GENERAL’S REPORT ON ETA
             FINANCIAL STATUS REPORT AND INDIRECT COST RATES


We have audited the Financial Status Report (FSR) (Exhibit A) prepared by the National
Association of Counties (NACo) for the costs claimed under the U.S. Department of Labor
(DOL) Grant Agreement F-6254-7-00-80-60 for the period July 1, 1997, through April 30, 1998,
and have issued our report thereon dated August 29, 2000. We also audited the NACo’s Indirect
Cost Rates (Exhibit E) for Calendar Year 1998. The amounts claimed in the FSR and the indirect
cost rates proposed in the Indirect Cost Proposal are the responsibility of NACo’s management.
Our responsibility is to express an opinion on the costs claimed and the indirect cost rates based
on our audit.

We conducted our audit in accordance with the generally accepted auditing standards and
Government Auditing Standards issued by the Comptroller General of the United States. Those
standards require that we plan and perform the audit to obtain reasonable assurance about
whether the FSR and the Indirect Cost Rates are free of material misstatement. An audit includes
examining, on a test basis, evidence supporting the amounts and disclosures in the FSR and the
indirect cost rates. An audit also includes assessing the accounting principles used and significant
estimates made by management, as well as evaluating the overall presentation of the FSR and the
indirect cost rates. We believe that our audit provides a reasonable basis for our opinion.

The accompanying FSR was prepared for the purpose of complying with Federal regulations and
the grant agreement between the DOL and NACo. This FSR was prepared based on costs
reported to DOL during the period which are reported on the accrual basis of accounting.
However, the report excludes the results of operations of other programs operated by NACo, and
does not include disclosures required by financial statements prepared in conformity with
generally accepted accounting principles.




                                                 3
In our opinion, except for the effects of the DOL Office of Cost Determination’s resolution of the
questioned costs (as discussed in the Findings and Recommendations section of this report), the
accompanying FSR (Exhibit A) and the Indirect Cost Rates (Exhibit E) present fairly, in all
material respects, the costs claimed for the period July 1, 1997, through April 30, 1998, and the
Indirect Cost rates for Calendar Year 1998, in accordance with OMB Circular A-122 and the
federal grant provisions.



JOHN J. GETEK
Assistant Inspector General for Audit
Date: August 29, 2000




                                                4
The Honorable Emily S. DeRocco
Assistant Secretary for Employment
  and Training
U.S. Department of Labor
200 Constitution Avenue, NW
Washington, DC 20210


                    ASSISTANT INSPECTOR GENERAL’S REPORT
                   ON COMPLIANCE AND ON INTERNAL CONTROL


We conducted an audit of the Financial Status Report (FSR) (Exhibit A) prepared by the National
Association of Counties (NACo) for the costs claimed under the U.S. Department of Labor
(DOL) Grant Agreement F-6254-7-00-80-60 for the period July 1, 1997, through April 30, 1998,
and have issued our report thereon dated August 29, 2000. We also audited NACo’s Indirect
Cost Rates (Exhibit E) for Calendar Year 1998. The amounts claimed in the FSR and the indirect
cost rates proposed in the Indirect Cost Proposal are the responsibility of NACo’s management.
Our responsibility is to express an opinion on the costs claimed and the indirect cost rates based
on our audit.

Compliance

As part of obtaining reasonable assurance that NACo’s financial statements are free of material
misstatement, we performed tests of NACo’s compliance with certain provisions of laws,
regulations, contracts, and grants, noncompliance with which could have a direct and material
effect on the determination of the FSR and the indirect cost rates. However, our objective was
not to provide an opinion on overall compliance with such provisions. Accordingly, we do not
express such an opinion. The results of our tests disclosed no instances of noncompliance that are
required to be reported under Government Auditing Standards.

Internal Control Over Financial Reporting

In planning and performing our audit, we considered NACo’s internal control over financial
reporting in order to determine our auditing procedures for the purpose of expressing our opinion
on the FSR and the indirect cost rates and not to provide assurance on the internal control over
financial reporting. Our consideration of the internal control over financial reporting would not
necessarily disclose all matters in the internal control over financial reporting that might be
material weaknesses. A material weakness is a reportable condition in which the design or
operation of one or more of the internal control components does not reduce to a relatively low
level the risk that errors or fraud in amounts that would be material in relation to the financial




                                                5
statements being audited may occur and not be detected within a timely period by employees in
the normal course of performing their assigned functions. We noted no matters involving the
internal control over financial reporting and its operation that we consider to be material
weaknesses.

This report is intended solely for the information and use of NACo management and the U.S.
Department of Labor. However, the report is a matter of public record and its distribution is not
limited.



JOHN J. GETEK
Assistant Inspector General for Audit
Date: August 29, 2000




                                                6
                      FINDINGS AND RECOMMENDATIONS


We audited the FSR prepared by NACo for the costs claimed for the period July 1, 1997, through
April 30, 1998, totaling $202,145. We also audited NACo’s Indirect Cost Rates for CY 1998
and total indirect costs of $7,041,452. As a result of the accounting adjustments made to the
charges within the indirect cost pool for CY 1998, we examined CYs 1995, 1996, 1997, and 1999
to determine if these unallowable costs were charged to the indirect cost pool. Our audit of direct
costs disclosed no reportable findings.

1. Unallowable Indirect Costs Totaling $1,243,392

Our audit of indirect costs resulted in unallowable rent, management fees, and bad debts of
$266,585, and unallowable nonpersonnel costs of $12,443, or total questioned costs of $279,028
for CY 1998. Because of our findings in CY 1998, we performed more testing and we found
additional unallowable costs of $964,364 for CYs 1995, 1996, 1997, and 1999. In total, we
questioned unallowable indirect costs in the indirect cost pool for CYs 1995 through 1999 in the
amount of $1,243,392.

   Expense         1995         1996          1997          1998          1999           Total
 a. Rent         $168,476     $177,284       $221,000     $192,924      $199,569         $959,253
 b. Mgt Fee        47,259        48,812        49,938       50,951         52,026         248,986
 c. Bad Debt              0            0             0      22,710               0         22,710
 d. Non-
    personnel             0            0             0      12,443               0         12,443
    Total        $215,735     $226,096       $270,938     $279,028      $251,595       $1,243,392




   a. Rent Expense

Our audit of building expenses in the indirect cost pool for CY 1998 disclosed that NACo was
claiming both depreciation and Consumer Price Index (CPI) increases for building rent. Both
depreciation and CPI increases for building rent were charged to the indirect cost pool because
NACo does not consider annual CPI increases to rent as rent.

NACo’s accounts for its building as a capital lease, and according to OMB Circular A-122,
Attachment B, para. 11.a, compensation for use of buildings may be made through depreciation
as an indirect cost. NACo properly backed out the basic building rent at the end of CY 1998, but
not the CPI increase to building rent.


                                                7
While NACo is not claiming the building rent, it is claiming annual CPI increases for building rent.
According to OMB Circular A-122, Attachment B, para. 46.d, rental costs under a capital lease
are allowable only up to the amount that would be allowed had the organization purchased the
property, i.e., to the amount that minimally would pay for depreciation.

We consider CPI adjustments to the building rent as an integral part of rent and questioned
$192,924 of CPI rent increases charged to the indirect cost pool in CY 1998. Because of our
finding in CY 1998, additional unallowable CPI costs to building rent in the indirect cost pool for
CYs 1995, 1996, 1997, and 1999 resulted in additional questioned costs of $766,329. The total
questioned costs for CYs 1995 through 1999 are $959,253.


   b. Management Fees

Our audit of management fees for CY 1998 disclosed that NACo charged the indirect cost pool
$50,951 for management fees to manage its building operations. According to OMB Circular
A-122, Attachment B, para. 46.d, unallowable costs includes management fees.

NACo occupied 25.53 percent of building space located at 440 First Street NW, Washington,
D.C., while subleasing the remaining 74.47 percent. To manage its building, NACo hired an
outside firm and pays an annual management fee. According to OMB Circular A-122,
Attachment B, para. 46.d,

       Rental costs under leases which are required to be treated as capital leases under
       GAAP, are allowable only up to the amount that would be allowed had the
       organization purchased the property on the date the lease agreement was executed,
       i.e., to the amount that minimally would pay for depreciation or use allowances,
       maintenance, taxes, and insurance. . . . Unallowable costs include amounts paid
       for . . . management fees . . . that would not have been incurred had the
       organization purchased the facility.

Because of our finding in CY 1998, additional management fees charged in CYs 1995, 1996,
1997, and 1999 resulted in additional questioned costs of $198,035. Therefore, the total costs
questioned for management fees is $248,986 for CYs 1995 through 1999.


   c. Bad Debts Expense

Our audit of bad debts expense for CY 1998 disclosed that NACo charged the indirect cost pool
$22,710 for bad debts. According to OMB Circular A-122, Attachment B, para. 3, bad debt
expenses are unallowable. NACo did not claim bad debts for CYs 1995, 1996, 1997, and 1999.




                                                 8
   d. Unallowable Nonpersonnel Expenses

Our audit of nonpersonnel expenses for CY 1998 disclosed unallowable costs charged to the
indirect cost pool totaling $32,443. We used statistical sampling to test large-dollar expense
categories which resulted in projected questioned cost of $26,357. We used judgmental
sampling to test small-dollar expense categories which resulted in an additional $6,086 of
questioned costs. Because NACo had established a contingency for questioned costs in its
indirect cost pool by reducing the pool by $20,000, the net questioned cost impacting the CY
1998 indirect cost rate is $12,443. (See Exhibit E.)

Of 1,586 records totaling $655,614, we statistically sampled nonpersonnel expenses for
CY 1998. We tested 114 nonpersonnel charges totaling $198,235 related to large-dollar expense
categories such as professional fees, staff travel, miscellaneous administrative costs, meeting
expenses, and purchased services. Our audit disclosed eight instances where the expenditures
were either unallowable, unsupportable, and, in certain instances, unreasonable under OMB
Circular A-122, resulting in $12,664 of questioned costs. (See Exhibit G.) The question costs
projected over the entire sample universe resulted in total questioned cost of $26,357.

In addition, we took a judgmental sample of nonpersonnel charges related to small-dollar expense
categories for CY 1998. We tested 33 nonpersonnel charges related to small-dollar expense
categories, totaling $66,854. Our audit disclosed three instances where the expenditures were
considered to be unallowable under OMB Circular A-122, resulting in $6,086 of questioned costs.
(See Exhibit H.) The questioned costs resulted, in part, from NACo’s interpretation of guidelines
set forth in OMB Circular A-122.

NACo officials stated that the annual staff holiday party should not be disallowed because it is
held for employee morale for the benefit of all staff. Except for the amount spent on alcoholic
beverages, we agreed with their explanation and do not question these costs. (See sample number
105 in Exhibit G.)

Recommendation

We recommend that the Director, Office of Cost Determination disallow $1,243,392 of indirect
costs claimed by NACo for CYs 1995 through 1999 and adjust the indirect cost rates as
appropriate. These questioned costs resulted in a reduction to the proposed indirect cost rates
which resulted in cost reductions of $10,098 for DOL programs.


                                           *****




                                                9
Auditee’s Response – Rent Expense

In the response to our draft report, NACo officials stated that the CPI rent increases represent
allowable indirect costs under at least two separate arguments.

Argument No. 1: Payments for the CPI increases represents allowable “facilities” costs under
OMB Circular A-122.

NACo officials stated that whether NACO’s lease payments are characterized as capital (i.e.,
depreciation and interest expense) or operating lease payments (i.e., rent expense) is irrelevant
since the amount paid to NACo’s landlord each month clearly represents a payment that covers
allowable “depreciation” and/or “operations and maintenance” costs under the guidelines of OMB
Circular A-122 and the U. S. Department of Labor’s own publication “A Guide for Indirect Cost
Rate Determinations.”

Argument No. 2: Under generally accepted accounting principles (GAAP), CPI increases would
be accounted for as allowable depreciation and interest expense.

NACo officials stated that, under GAAP, each year’s allowable depreciation expense would be
increased, since the effect of the CPI increases would be to increase depreciation expense and
fully recover all depreciation over the term of the lease. Additionally, since this calculation is
based on present values of future rent payments, a small amount of the CPI increase would be
accounted for as interest expense.

Auditor’s Conclusion – Rent Expense

We disagree with NACo’s position. If NACo had rented its office space under an operating lease,
the CPI increases each year would be allowable rental costs which generally increase with
inflation. However, because NACo acquired its office space under a capital lease, OMB Circular
A-122, Attachment B, para. 46.d, limits rental costs as follows: “rental costs . . . are allowable
only up to the amount that would be allowed had the organization purchased the property on the
date the lease agreement was executed, i.e., to the amount that minimally would pay for
depreciation or use allowances, maintenance, taxes, and insurance.”

This portion of the recommendation remains unresolved.

Auditee’s Response – Management Fees

In the response to our draft report, NACo officials stated that OIG misinterpreted and misapplied
OMB Circular A-122, Attachment B, para. 46.d, in questioning “management fees” charged to
indirect costs. NACo stated that the basis for its argument is identical to that for the questioning
of the CPI rent increases described in the preceding section.

NACo officials pointed out that allowable indirect costs are classified as either “facilities” or
“administration” per OMB Circular A-122, Attachment A (General Principles), Section C
(Indirect Costs). NACo officials further stated that Section C, para. 3, identifies “operations and

                                                 10
maintenance expenses” as a component of “Facilities” cost. Section C, para. 3(b)(3) lists several
allowable components of “operations and maintenance costs,” including janitorial services,
repairs to buildings, and care of grounds.

NACo officials responded that they delegated the following duties to the management company
under the management agreement:

   1. Ensure proper and efficient management, operation, and maintenance of the building;

   2. Enter into contracts for cleaning, maintaining, repairing, or servicing the building;

   3. Maintain or cause to be maintained the building and common areas.

These and all other duties described in the agreement all fall within the allowable “operations and
maintenance” costs from OMB Circular A-122 and DOL guidelines. These duties clearly fall
outside the scope of costs disallowed by Attachment B, para. 46.d, which contemplates “profit”
and fees “that would not have been incurred had the organization purchased the facility.” Each of
these activities, NACo officials contend, would have most definitely been necessary had it
purchased the building.

Auditor’s Conclusion – Management Fees

We disagree with NACo’s position. Our analysis of the Real Property Management and Leasing
Agreement showed that the bulk of services to be provided under this agreement involve the
leasing and management of the building space not occupied by NACo. It also appears that a large
part of the management fees paid involve leasing fees and construction management fees for the
74.47 percent of the property not occupied by NACo. In the absence of adequate data to
determine to what extent the management fees pertain to the 25.53 percent of space occupied by
NACo versus the 74.47 percent of space occupied/available for lease by tenants, we continue to
question all management fees claimed.

This portion of the recommendation remains unresolved.

Auditee’s Response – Bad Debt Expense

In the response to our draft report, NACo officials agreed that the bad debt expense is an
unallowable cost under OMB Circular A-122, Attachment B, Item 3. NACo officials stated these
amounts were claimed in error.

Auditor’s Conclusion – Bad Debt Expense

This portion of the recommendation is resolved but will remain open pending documentation that
the bad debt expense has been removed from the indirect cost pool.




                                                11
Auditee’s Response – Unallowable Nonpersonnel Expenses

In the response to our draft report, NACo officials stated that they previously deducted credits
against costs in the indirect cost pools (contingency credits) of $20,000 for CY 1996, $20,000 for
CY 1998, and $11,316 for CY 1999. NACo planned to use these amounts as offsets to any
questioned costs found by auditors. In a letter to the OIG dated August 24, 2000, NACo officials
stated the deductions were made as an allowance against error.

NACo officials requested that OIG reconsider the amounts deducted from the indirect cost pools
for Calendar Years 1996 and 1999 so it is not doubly penalized.

In another area, NACo officials requested OIG to reconsider costs that were recommended for
disallowance for its annual holiday party because it is held for employee morale. NACo
acknowledged that OIG did reduce the amount disallowed for the party (less non-allowed
expenditures for alcohol) and that OIG took into account the $20,000 credit (contingency credit)
NACo deducted from the indirect cost pool for CY 1998.

Auditor’s Conclusion – Unallowable Nonpersonnel Expenses

NACo officials did not dispute the OIG-adjusted amounts of unallowable nonpersonnel expenses
questioned in CY 1998. However, NACo noted that it had previously told OIG auditors it had
included contingency credits in its indirect costs claimed of $20,000 in CY 1996, $20,000 in
CY 1998, and $11,316 in CY 1999, and that the auditors only gave NACO credit for the $20,000
contingency in 1998. We audited nonpersonnel expenses for CY 1998. OIG verified that NACo
did have a contingency credit of $20,000 which we did offset against the unallowable
nonpersonnel expenses. However, we did not audit nonpersonnel expenses in 1996 and 1999.
Thus, we did not take into consideration any contingency credits.

This portion of the recommendation remains unresolved.




                                               12
13
14
                                                                                                                             Exhibit A-1

                                         Comparison of Reported Costs versus Actual Costs
                                               July 1, 1997 through April 30, 1998


                            Costs           NACo Costs                                       G/L Total     Difference     Adjustment
                          Reported to        Internal            G/L 1997    G/L 1998          Costs       Actual vs.    to Overhead
                          DOL on FSR          Report                                         1997/1998     Reported        Difference
Personnel                                   $ 85,468.00      $ 58,700.47     $26,767.59     $ 85,468.06                  $         .06
Overhead/Indirect Cost                        97,100.00        66,689.00      28,292.00       94,981.00                      (2,119.00)
Total                                       $182,568.00      $125,389.47     $55,059.59     $180,449.06                   $(2,118.94)


Other Direct Expenses:
Phone/FAX                                   $    2,118.00    $    1,733.88   $     383.51   $   2,117.39      $ (.61)
Dues                                               343.00           195.00         147.50         342.50         (.50)
MIS Charges                                      4,909.00         3,265.74       1,643.20       4,908.94         (.06)
On Line Charges                                    802.00           544.29         256.75         801.04         (.96)
Supplies/ Office Admin.                            295.00           268.20          26.42         294.62         (.38)
Subscriptions                                      349.00               00         349.00         349.00           00
USPS Postage                                     1,297.00           723.02         572.34       1,295.36       (1.64)
Travel                                           4,462.00         3,879.36         580.77       4,460.13       (1.87)
Reproduction                                        99.00            14.70          84.00          98.70         (.30)
Printing                                         6,027.00         4,051.25       1,974.50       6,025.75       (1.25)
Express Mail                                       487.00           356.10         130.92         487.02          .02
Miscellaneous                                      508.00              .00         508.22         508.22          .22
Staff Entertainment                                   .00            21.97            .00          21.97        21.97
Adjustment to Overhead                          (2,119.00)             .00            .00            .00          .06        (2,118.94)
Total Other Expenses                        $ 19,577.00      $ 15,053.51     $ 6,657.13     $ 21,710.64       $ 14.70    $ 2,133.64
Total Other Expenses       $202,145.00      $202,145.00      $140,442.98     $61,716.72     $202,159.70       $ 14.70    $      14.70




                                                                    15
                                                                                         Exhibit B


                              Computation of Indirect Cost Rate
                                  for Calendar Year 1995


Allowed Building Cost per NACo                       $2,376,448
Subtract Building Questioned Costs                      215,735    Finding No. 1
Net Building Costs per Audit                          2,160,713
Multiplied by NACo Occupancy Rate                         20.25%
NACo Occupancy Cost per Audit                            437,544


Net Cost Before Federal Occupancy Allowance          $2,754,068
Add Occupancy Allowance                                 437,544

Net Allowable Indirect Cost per Audit                $3,191,612                    (A)

Base: Direct Salaries                                $2,705,186                    (B)



Indirect Cost Rate                   Proposed              Recommended

Net Federal Allowable Costs          $3,235,358            $3,191,612              (A)

Base: Direct Salaries                $2,705,186            $2,705,186              (B)

Overhead Rate                           119.60%               117.98%        (A divided by B)




                                                16
                                                                                         Exhibit C


                              Computation of Indirect Cost Rate
                                  for Calendar Year 1996


Allowed Building Cost per NACo                       $2,254,221
Subtract Building Questioned Costs                      226,096    Finding No. 1
Net Building Costs per Audit                          2,028,125
Multiplied by NACo Occupancy Rate                        24.07%
NACo Occupancy Cost per Audit                            488,170


Net Cost Before Federal Occupancy Allowance          $2,866,161
Add Occupancy Allowance                                 488,170

Net Allowable Indirect Cost per Audit                $3,354,331                    (A)

Base: Direct Salaries                                $2,905,402                    (B)



Indirect Cost Rate                   Proposed              Recommended

Net Federal Allowable Costs          $3,408,760            $3,354,331              (A)

Base: Direct Salaries                $2,905,402            $2,905,402              (B)

Overhead Rate                           117.32%              115.45%         (A divided by B)




                                                17
                                                                                         Exhibit D


                              Computation of Indirect Cost Rate
                                  for Calendar Year 1997


Allowed Building Cost per NACo                       $2,018,295
Subtract Building Questioned Costs                      270,938    Finding No. 1
Net Building Costs per Audit                          1,747,357
Multiplied by NACo Occupancy Rate                        25.44%
NACo Occupancy Cost per Audit                            444,528


Net Cost Before Federal Occupancy Allowance          $2,797,580
Add Occupancy Allowance                                 444,528

Net Allowable Indirect Cost per Audit                $3,242,108                    (A)

Base: Direct Salaries                                $2,932,858                    (B)



Indirect Cost Rate                   Proposed              Recommended

Net Federal Allowable Costs          $3,311,131            $3,242,108              (A)

Base: Direct Salaries                $2,932,858            $2,932,858              (B)

Overhead Rate                           112.90%               110.54%        (A divided by B)




                                                18
                                                                                        Exhibit E


                              Computation of Indirect Cost Rate
                                  for Calendar Year 1998


Allowed Building Cost per NACo                       $1,941,535
Subtract Building Questioned Costs                      266,585    Finding No. 1a - c
Net Building Costs per Audit                          1,674,950
Multiplied by NACo Occupancy Rate                        25.53%
NACo Occupancy Cost per Audit                            427,615


Net Cost Before Federal Occupancy Allowance          $3,183,889
Add Occupancy Allowance                                 427,615
Subtract Nonpersonnel Questioned Costs                   12,443    Finding No. 1d

Net Allowable Indirect Cost per Audit                $3,599,061                  (A)

Base: Direct Salaries                                $3,047,323                  (B)



Indirect Cost Rate                   Proposed              Recommended

Net Federal Allowable Costs          $3,679,615            $3,599,061            (A)

Base: Direct Salaries                $3,047,323            $3,047,323            (B)

Overhead Rate                           120.75%               118.11%         (A divided by B)




                                                19
                                                                                        Exhibit F


                              Computation of Indirect Cost Rate
                                  for Calendar Year 1999


Allowed Building Cost per NACo                       $1,794,934
Subtract Building Questioned Costs                      251,595   Finding No. 1
Net Building Costs per Audit                          1,543,339

Multiplied by NACo Occupancy Rate                       25.74%
NACo Occupancy Cost per Audit                           397,255


Net Cost Before Federal Occupancy Allowance          $3,405,666
Add Occupancy Allowance                                 397,255

Net Allowable Indirect Cost per Audit                $3,802,921                   (A)

Base: Direct Salaries                                $2,988,236                   (B)



Indirect Cost Rate                   Proposed              Recommended

Net Federal Allowable Costs          $3,867,753            $3,802,921             (A)

Base: Direct Salaries                $2,988,236            $2,988,236             (B)

Overhead Rate                           129.43%              127.26%        (A divided by B)




                                                20
                                                                                                                                                 Exhibit G

                                    Summary of Questioned Costs for Nonpersonnel Testing
                                          Calendar Year 1998 – Statistical Sample


Sample #    Ref - 1   Ref - 2    Date             Description                                      Criteria                                    Questioned

   29      JE 801     ASM       5/10/99    Alcoholic Beverages       OMB Circular A-122, Attachment B, Selected Items of Cost.                   $1,989.00
                                                                     2. Costs of alcoholic beverages are unallowable.

  64-A     070198     27799     6/24/98    Lunch in Columbus, OH     Lunch in Washington, DC, on the same date erroneously                           21.75
                                           on 6/24/99                charged by the same individual.

  64-B     12074      27363     6/23/98    United Airlines flight    OMB Circular A-122, Attachment B, Selected Items of Cost.                     375.00
                                           upgrade certificates      55.c. The difference in cost between first-class air
                                                                     accommodations and less than first-class air accommodations
                                                                     is unallowable . . . .

   74      185596     30730     12/31/98   Alcoholic Beverages       OMB Circular A-122, Attachment B, Selected Items of Cost.                    1,608.73
                                                                     2. Costs of alcoholic beverages are unallowable.

   85      103198     30207     11/01/98   Fund Raising              OMB Circular A-122, Attachment B, Selected Items of Cost.                     685.00
                                                                     25.a. Costs associated with the following activities are
                                                                     unallowable: (4) Any attempt to influence:
                                                                     (i) The introduction of Federal or State legislation; or
                                                                     (ii) the enactment or modification of any pending Federal or
                                                                     State legislation . . . ; or (5) Legislative liaison activities . . . .

                                                                                                   Sub-Total                                     $4,679.48




                                                                    21
                                                                                                                          Exhibit G (Continued)

                                    Summary of Questioned Costs for Nonpersonnel Testing
                                         Calendar Year 1998 – Statistical Sample


Sample #    Ref - 1   Ref - 2    Date             Description                                    Criteria                             Questioned

   87      070198     28047     8/07/98    No Purpose for Trip          OMB Circular A-122, Attachment A, General Principles.             529.00
                                           Indicated                    A.2. To be allowable under an award, costs must meet the
                                                                        following general criteria:
                                                                        g. Be adequately documented.

   89      100298     29698     10/01/98   Executive Committee          OMB Circular A-122, Attachment B, Selected Items of Cost.        1,728.85
                                           travel charges to Germany    55.e. Direct charges for foreign travel costs are allowable
                                                                        only when the travel has received prior approval of the
                                                                        awarding agency.

   91      090198     29280     9/01/98    Executive Committee          OMB Circular A-122, Attachment A, General Principles.            4,204.60
                                           Annual Conference            A.2. To be allowable under an award, costs must meet the
                                           excessive and                following general criteria:
                                           unreasonable                 a. Be reasonable for the performance of the award and be
                                           transportation charges       allocable thereto under these principles.

  105      101598     30540     12/30/98   Alcoholic Beverages          OMB Circular A-122, Attachment B, Selected Items of Cost.        1,522.50
                                                                        2. Costs of alcoholic beverages are unallowable.

                                                                                                 Total                                 $12,664.43




                                                                       22
                                                                                                                                                        Exhibit H

                                   Summary of Questioned Costs for Nonpersonnel Testing
                                        Calendar Year 1998 – Judgmental Sample


Sample #   Ref - 1     Ref -    Date             Description                                              Criteria                                    Questioned
                        2

   22      14          29667   10/30/98   Board Dues paid to                OMB Circular A-122, Attachment B, Selected Items of Cost.                  $5,000.00
                                          Generations United                25.a. Costs associated with the following activities are
                                                                            unallowable: (4) Any attempt to influence:
                                                                            (i) The introduction of Federal or State legislation; or
                                                                            (ii) the enactment or modification of any pending Federal or
                                                                            State legislation . . . ; or (5) Legislative liaison activities . . . .

   24      010299      30827   12/31/98   Donation to National Press        OMB Circular A-122, Attachment B, Selected Items of Cost.                      50.00
                                          Employee Christmas Club           9. Contributions and donations by the organization to others
                                                                            are unallowable.

   26      9808-4691   28774   9/08/98    Invitations and Envelopes         OMB Circular A-122, Attachment B, Selected Items of Cost.                   1,036.00
                                          for NACo’s Open House             1. Advertising and public relations costs.
                                                                            f. Unallowable advertising and public relations costs include
                                                                            the following: (4) Costs of advertising and public relations
                                                                            designed solely to promote the organization.

                                                                                                          Total                                        $6,086.00




                                                                       23
                                                                                      Exhibit I


                     Statistical Sample Projection of Questioned Costs
                                  for Nonpersonnel Testing
                                     Calendar Year 1998



       Activity             Point Estimate         Standard Error           Upper Limit
     Nonpersonnel
                               $26,357                 $8,832                 $40,930
      Accounts


Confidence Level: 95% One Sided

Estimation Methodology: These estimates and the standard errors have been calculated using
formulas for the Stratified random sampling appraisal methodology.

Reference: Elementary Survey Sampling, by Schaefer, 1996 edition.




                                              24
                                                                                                                                                 Exhibit J


                                                       Indirect Cost Rates and Reductions
                                                     for Calendar Years 1995 through 1999

                                                                                                                                            Total
                        Description                                CY 1995         CY 1996         CY 1997        CY 1998         CY 1999 Questioned
                                                                                                                                            Costs

Audited Indirect Cost Rate Î                                        117.98%        115.45%         110.54%        118.11%         127.26%
  (See Exhibits B through F.)
NACo’s Indirect Cost Rate                                           119.60%        117.32%         112.90%        120.75%         129.43%
  (See Exhibits B through F.)
Indirect Cost Rate Decrease per Audit Ï                               1.62%           1.87%           2.36%          2.64%           2.17%


Total Direct DOL Salaries                                           $94,996        $100,177       $103,729         $94,942         $79,794
Multiplied by Rate Decrease per Audit                                1.62%           1.87%          2.36%           2.64%           2.17%
Total DOL Cost Reduction due to Questioned Costs Ï                    $1,539         $1,873          $2,448          $2,506         $1,732       $10,098


Total Direct Salaries All Federal Programs                         $346,487        $416,770       $566,787        $567,050        $410,870
Multiplied by Rate Decrease per Audit                                1.62%           1.87%          2.36%           2.64%           2.17%
Total Federal Cost Reduction due to Questioned Costs Ï                $5,613         $7,794         $13,376        $14,970          $8,916       $50,669


  Î We audited NACo’s indirect cost rates for CY 1998 and total indirect costs of $7,041,452. Because of the accounting adjustments made to
    charges within the indirect cost pool for CY 1998, we examined the indirect cost pool for CYs 1995, 1996, 1997, and 1999 to determine if
    unallowable costs were charged.

  Ï The questioned costs resulted in a reduction to the proposed indirect cost rates, cost reductions of $10,098 for DOL programs, and $50,669
    for all Federal programs for CYs 1995 through 1999.




                                                                            25
AUDITEE’S RESPONSE




        26
